C.ase: 8:19-cv-00296-RGK-PRSE

Document #: 30-1

Date Filed: 02/13/2020

Page 1 of 9

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEBRASKA
BRANDON J. WEATHERS,
Petitioner,

8:19CV296

vs.
MEMORANDUM AND ORDER
SCOTT FRAKES,
Respondent.

Petitioner brings this § 2254 case challenging his conviction for two counts of
first-degree sexual assault of a child. Filing no. 9, the amended petition, is the
operative pleading. The Respondent has answered and filed the relevant state court
records. The matter has been briefed. I now deny the amended petition and dismiss
this matter with prejudice for the reasons stated below.
Brief Overview
There is absolutely no doubt that Petitioner had intimate relations with a 13year-old girl for whom he was supposed to be serving as a foster father. The child
miscarried at the hospital and DNA established the paternity of Petitioner. To say
the least, his defense at the jury trial was bizarre.
After dissatisfaction with his two public defenders1, and despite repeated
warnings by the trial judge, e.g., Filing no. 11-16 at CM/ECF p. 50, Petitioner
decided to represent himself. He testified and claimed that he had masturbated into
a plastic bag at least four times and the child on multiple occasions inserted his
semen into her vaginal cavity using several syringes. In other words, he claimed that
he did not penetrate the child with his penis. Filing 11-20 at CM/ECF pp. 111-172.

They served as standby counsel.

Case: 8:19-cv-00296-RGK-PRSE

Document#: 30-1

Date Filed: 02/13/2020

Page 2 of 9

However, his-pastor, who Petitioner called as his witness, testified that Petitioner
had admitted to the pastor that at least once Petitioner penetrated the child with a
syringe. Id. at CM/ECF p. 106-107.2 The pastor also recounted that he told
Petitioner he did not believe the syringe story either. Id. at CM/ECF p. 111.
There was a great deal more evidence, including the haunting testimony of the
child, e.g., Filing no. 11-18 at CM/ECF pp. 151-250 (direct examination), but it is
enough to state that the evidence was overwhelming, the jury did not believe
Petitioner and he was convicted on both counts. The sentencing range for each count
* -.was a minimum of 15 years to a maximum of life. He was sentenced to consecutive
sentences of 50 to 80 years of imprisonment.
In fashioning Petitioner’s sentences, the trial judge recognized that Petitioner
failed to take responsibility for his actions. The court relied on the nature of the
offenses and Petitioner’s actions after the investigation began. The child was
Petitioner’s 13-year-old foster daughter, and the sexual assaults began during the 7week period she resided in his home. After she was moved from Petitioner’s home,
he continued to sneak cell phones *to her, followed her around, and maintained a
sexual relationship with her, impregnating her more than 4 months after she was removed from his care. The trial judge observed that Petitioner was the only father
figure the child ever had, which made his violation of her trust that much worse. And
the child’s caseworkers were extremely fearful for her safety and exhausted
themselves trying to keep the child away from Petitioner.
Procedural History
Petitioner, with newly appointed counsel, filed a direct appeal. The Nebraska
Court of Appeals affirmed Petitioner’s convictions and sentences in an opinion filed
on January 3, 2017. State v. Weathers, No. A-16-305, 2017 WL 24777 (Neb. App.
2017) (Weathers I). A copy of the opinion may be found at Filing no. 11 -3. A petition
2 On cross-examination by the prosecution, Petitioner then claimed that his
pastor was not telling the truth. Id. at CM/ECF p. 158. (“He flat out lied.”)
2

Case: 8:19-cv-00296-RGK-PRSE

Document #: 30-1

Date Filed: 02/13/2020

Page 3 of 9

~ for further review to the Nebraska Supreme Court was filed on February 6, 2017 and
denied as untimely filed. Filing no. 11-1 at CM/ECF p. 4.
On November 2, 2017, Petitioner filed a timely motion for postconviction
relief in the district court. An amended motion was later filed. The state district court
denied the amended postconviction motion without an evidentiary hearing.
Petitioner appealed, and on March 26,2019, the Nebraska Court of Appeals affirmed
the lower court’s judgment. State v. Weathers, No. A-18-483, 2019 WL 1375345
(Neb. App. 2019) (Weathers II). A copy of that opinion may be found at Filing no.
11-4. The mandate was issued on May 1, 2019. After the issuance of the mandate,
' and on May 6, 2019, Filing no. 11-2 at CM/ECF p. 2, Petitioner filed an untimely
petition for further review which was denied by the Nebraska Supreme Court. Id.
Petitioner endeavors to excuse the late filing of the two petitions for further
review.3 Filing no. 17; Filing no. 18.1 will discuss his arguments in slightly more
detail later in this opinion. I assume, without deciding, that the exhibits (Exhibits! 214) attached to Filing no. 17 are true and correct copies of “kites” he submitted to
prison officials regarding mailings even though they are not properly authenticated
by affidavit.
Claims
Here are the claims that I found potentially cognizable:
Claim One: Appellate counsel was ineffective for failing
to assign as error the trial court’s failure to conduct an
adequate inquiry into Petitioner’s motion to substitute
counsel.

3 The petition for further review regarding the direct appeal has no particular
relevance at least insofar as the ineffective assistance of counsel claims are
concerned because they all related to counsel who represented Petitioner in the direct
appeal. So, it is the second petition for further review regarding the post-conviction
matter that is the most significant.
3

Case: 8:19-cv-00296-RGK-PRS£

Document #: 30-1

Date Filed: 02/13/2020 . Page 4 of 9

Claim Two: Appellate counsel was ineffective for failing
to assign as error that the Petitioner’s waiver of counsel
was not knowingly, voluntarily and intelligently made.
Claim Three: Appellate counsel was ineffective for failing
to assign as error that Petitioner was denied his right to
effective assistance of trial counsel due to ineffective
cross-examination.
Claim Four: Appellate counsel was ineffective for failing
to assign as error that the prosecution withheld
exculpatory evidence in violation of Brady v. Maryland.
Claim Five: Appellate counsel was ineffective for failing
to assign as error that trial counsel was ineffective for
failing to suppress the DNA evidence.
Claim Six: Petitioner is actually innocent.
Filing no. 14 at CM/ECF pp. 1-2.
Analysis
Respondent asserts that claims 1-5 are procedurally defaulted without excuse.
Respondent also asserts that claim 6 is not cognizable, that is, it fails to state a federal
claim, but even it if did the claim is meritless. I agree. Given the nature of this case,
and the fact that the law is well understood, I will be brief.
Claims 1-5
The first five claims at stake here were not presented to the Nebraska Supreme
Court and thus the Nebraska courts were not provided with one complete round of

4

Case: 8:19-cv-00296-RGK-PRSE

Document #: 30-1

Date Filed: 02/13/2020

Page 5 of 9

review. Since Nebraska does not allow two bites of the post-conviction apple,4
Nebraska’s highest court is, and will forever be, foreclosed from reviewing
Petitioner’s claims. Generally speaking, this violates the doctrine of comity that
undergirds the present federal habeas corpus law. See, e.g., 28 U.S.C. §
2254(b)(1)(A).
Under federal law, a state prisoner must present the substance of each federal
constitutional claim to the state courts before seeking federal habeas corpus relief.
In Nebraska, this ordinarily means that each § 2254 claim must have been presented
to the trial court, then in an appeal to the Nebraska Court of Appeals, and finally in
a petition for further review to the Nebraska Supreme Court if the Court of Appeals
rules against the petitioner. O'Sullivan v. Boerckel, 526 U.S. 838, 845-848 (1999)
(in order to satisfy exhaustion requirement, prisoner was required to present his
claims to Illinois Supreme Court for discretionary review); Akins v. Kenney, 410
F.3d 451,454-455 (8th Cir. 2005) (Nebraska law required petitioner to file a petition
for further review with the Nebraska Supreme Court in order to exhaust his available
state court remedies).
To be precise, a federal habeas court may not review a state prisoner’s federal
claims if those claims were defaulted in state court pursuant to an independent and
adequate state procedural rule “unless the prisoner can demonstrate cause for the
default and actual prejudice as a result of the alleged violation of federal law, or

4 That is, “[a]n appellate court will not entertain a successive motion for
postconviction relief unless the motion affirmatively shows on its face that the basis
relied upon for relief was not available at the time the movant filed the prior motion.”
State v. Ortiz, 670 N.W.2d 788, 792 (Neb. 2003). Additionally, “[a] motion for
postconviction relief cannot be used to secure review of issues which were or could
have been litigated on direct appeal.” Hall v. State, 646 N.W.2d 572, 579 (Neb.
2002). See also State v. Thorpe, 858 N.W.2d 880, 887 (Neb. 2015) (“A motion for
postconviction relief cannot be used to secure review of issues which were or could
have been litigated on direct appeal, no matter how those issues may be phrased or
rephrased.”)
5

Case: 8:19-cv-00296-RGK-PRSE

Document#: 30-1

Date Filed: 02/13/2020

Page 6 of 9

demonstrate that failure to consider the claims will result in a fundamental
miscarriage of justice.” Coleman v. Thompson, 501 U.S. 722, 750 (1991).
I assume, without deciding, the doubtful proposition that Petitioner has
demonstrated “cause” to excuse the procedural default of claim one as relates to the
petition for further review of the post-conviction decision of the Nebraska Court of
Appeals. This is because there may have been a mail screwup at the prison as
possibly evidenced by Filing no. 17 CM/ECF p. 5.5 But Petitioner cannot establish
“actual prejudice.” To establish “actual prejudice” under Coleman, a petitioner must
show that the errors of which he complains “worked to his actual and substantial
disadvantage, infecting his entire trial with error of constitutional dimensions.”
United States v. Frady, 456 U.S. 152, 170 (1982) (emphasis in original).
In claim one, Petitioner asserts that his appellate counsel was ineffective for
failing to assign as error the trial court’s alleged failure to conduct an adequate
inquiry into his pro se motion to substitute counsel (fire the two court appointed
public defenders so he could get a new court appointed lawyer). However, in
Weathers II the Nebraska Court of Appeals carefully examined the claim and found
it entirely lacking in merit for among other reasons that under Nebraska law. (and
federal law too) indigent defendants are not entitled to a new court appointed lawyer
for no good reason. 2019 WL 1375345, at *l-4.6 There is no chance that the

5 But the following should be noted: “Nebraska does not have a prison
delivery rule.” State v. Seberger, 815 N.W.2d 910, 915 & n.5 (Neb. 2012) (citing
State v. Hess, 622 N.W.2d 891 (Neb. 2001); State v. Parmar, 586 N.W.2d 279, 284
(Neb. 1998) (“We decline to adopt the ‘prisoner delivery rule’ and conclude that
prisoners acting pro se are subject to the same filing rules as other litigants.”)
6 Among other things, Petitioner was upset with his public defenders because
he thought that they were not doing enough to get exculpatory text or e-mails from
the variety of phones he had provided the child. So far as the record reflects,
Petitioner never identified what specific exculpatory text or e-mail messages were
missing. In any event, the public defenders were in contact with the prosecutor and
the prosecutor stated on the record that she had turned over and would turn over
6

Case: 8:i9-cv-00296-RGK-PRS^

Document #: 30-1

Date Filed: 02/13/2020

Page 7 of 9

Nebraska Supreme Court would have disagreed with the careful analysis, of the
Nebraska Court of Appeals. Indeed, I have independently reviewed the merits of the
claim, and giving the deference due the Nebraska Court of Appeals, the decision was
bullet proof under applicable federal standards.7 Hence/Petitioner has shown no
actual prejudice.
Petitioner’s second through fifth habeas claims involve additional assertions
of ineffective assistance of direct appeal counsel that have been defaulted even
without considering the tardy petition for further review. Petitioner concedes that
these claims have been procedurally defaulted because he either failed to reassert the
claims in his post-conviction appeal or he never raised them in his post-conviction
motion. Filing No. 18 at CM/ECF pp. 14-15; Filing No. 20 at CM/ECF pp. 10-11.
Petitioner seeks to excuse his procedural default because the claims involve
ineffective assistance of appellate counsel. Id. But, Petitioner’s claims of ineffective
assistance of appellate counsel on direct appeal cannot serve as cause to excuse the
procedural default because he did not present these ineffective assistance of
appellate counsel claims in the post-conviction proceedings before the trial court or,
"T7

whatever she was provided by the technicians. The record reflects page after page
after page of extraction reports from one or more of the cell phones. See portions of
Filing no. 11-22; Filing no. 11-23; Filing no. 11-24.
7 Petitioner argues that the appellate court’s decision was unreasonable
because the court failed to consider the hearings held on November 13 and December
3, 2015. Filing No. 18 at CM/ECF pp. 12-13. However, these hearings, Filing no.
11-16 at CM/ECF pp. 63-101, occurred after the trial court ruled on Petitioner’s
motion to dismiss counsel on November 4, 2015, and thus, were not relevant to the
court’s analysis. Id. at CM/ECF pp. 49-54. Moreover, Petitioner never renewed his
motion to dismiss his court appointed counsel but instead continued to insist that he
would represent himself at trial. Id. at CM/ECF pp. 63-101.
7

■

Case: 8:19-cv-00296-RGK-PRSe

Document #: 30-1

Date Fifed: 02/13/2020

Page 8 of 9

alternatively, the Nebraska Court of Appeals.8 He had the opportunity to do so, and
blew it.
Nebraska law is clear on this subject. A person seeking post-conviction relief
must present his or her claim to the district court or the Nebraska appellate courts
will not consider the claim on appeal. State v. Deckard, 722 N.W.2d 55, 63 (Neb.
2006) (denying postconviction relief in a murder case and stating: “An appellate
court will not consider as an assignment of error a question not presented to the
district court for disposition through a defendant’s motion for postconviction
relief.!*) Similarly, on appeal, the appealing party must both assign the specific error
and specifically argue that error in the brief. Otherwise the claim is defaulted under
Nebraska law. State v. Henry, 875 N.W.2d 374, 407 (Neb. 2016) (stating an alleged
error must be both specifically assigned and specifically argued in the brief of the
party asserting the error to be considered by an appellate court). These rules are
consistently applied in Nebraska
So, even if I disregard the untimely petition for further review, Petitioner has
procedurally defaulted claims two through five. And, he has shown no cause for the
default (some factor external to him). Moreover, he has shown no actual prejudice
for the default either.
Claim 6
Claim six, regarding an allegation of actual innocence, while probably
procedurally defaulted as well, can be easily denied on the merits for two reasons.
First, the Supreme Court has never recognized a freestanding claim of actual
innocence. See Dansby v. Hobbs, 766 F.3d 809, 816 (8th Cir. 2014). Second, even

8

Martinez v. Ryan, 566 U.S. 1 (2012) is not applicable to this case because
the claims here involve only ineffective assistance of direct appeal counsel. See
Davila v. Davis, 137 S. Ct. 2058, 2063 (2017) {Martinez does not apply to defaulted
ineffective assistance of appellate counsel claims).
8

Case: 8:19-cv-00296-RGK-PRSE

Dpcument #: 30-1

Date Filed: 02/13/2020

Page 9 of 9

if there was such an animal, the burden on Petitioner would be extraordinarily high. *
Id. And Petitioner has not come anywhere close to meeting such a burden.9 Indeed,
his assertion of actual—meaning factual—innocence is frivolous.10
Certificate ofAppealability

*&,.

A petitioner cannot appeal an adverse ruling on his or her petition for writ of
habeas corpus under § 2254 unless he or she is granted a certificate of appealability.
28 U.S.C. § 2253(c)(1); 28 U.S.C. § 2253(c)(2); Fed. R. App. P. 22(b)(1). The
standards for certificates (1) where the district court reaches the merits or (2) where
the district court rules on procedural grounds are set forth in Slack v. McDaniel, 529
U.S. 473, 484-485 (2000). I have applied the appropriate standard and determined
Petitioner is not entitled to a certificate of appealability.
IT IS ORDERED that this matter is dismissed with prejudice. No certificate
of appealability will be or has been issued. A separate judgment will be filed.
Dated this 13th day of February, 2020.
BY THE COURT:

Richard G. Kopf
Senior United States District Judge

9 Petitioner concedes that he has no new evidence to support his actual
innocence claim. Filing no. 18 at CM/ECF pp. 15-16; Filing no. 20 at CM/ECF pp.
11-12.
10 This necessarily means that I have concluded that there has been no
miscarriage of justice that would excuse any of the procedural defaults described
above.
9

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT

No: 20-1507

Brandon J. Weathers
Petitioner - Appellant
v.
Scott Frakes
Respondent - Appellee
Appeal from U.S. District Court for the District of Nebraska - Omaha
(8:19-cv-00296-RGK)
JUDGMENT

Before GRUENDER, KELLY, and ERICKSON, Circuit Judges.

This appeal comes before the court on appellant's application for a certificate of
appealability. The court has carefully reviewed the original file of the district court, and the
application for a certificate of appealability is denied. The appeal is dismissed. The motion to
expedite appeal is denied as moot.
July 24, 2020

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: 20-1507
Brandon J. Weathers
Appellant
v.
Scott Frakes
Appellee

Appeal from U.S. District Court for the District of Nebraska - Omaha
(8:19-cv-00296-RGK)
ORDER
The petition for rehearing by the panel is denied as overlength.
August 25, 2020

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

8:19-cv-00296-RGK-PRSE Doc #11-15 Filed: 08/23/19 Page 61 of 69 - Page ID # 626

Ex.hibrP I
IN THE DISTRICT COURT OF DOUGLAS COUNTY, NEBRASK A
Ay-

THE STATE OF NEBRASKA,
Plaintiff,
vs.
BRANDON WEATHERS,
Defendant.

)
)
)
)
)
)
)
)
)
)

CRXS-3306
ORDER DENYING DEFENDANT’S
AMENDED MOTION FOR
POSTCONVICTION RELIEF

N

6

l°*4!S

/

Before the Court is Defendant’s Amended Motion for PostconvictlM^KltS'Dj^^o
\

December 29, 2017. The Court takes judicial notice of the Bill of exceptions. Having now
reviewed these documents, the Court finds and orders as follows:
STANDARD OF REVIEW
The Nebraska Postconviction Act, Neb. Rev. Stat. § 29-3001 et seq. (Reissue 2016),
provides that postconviction relief is available to a prisoner in custody under sentence who seeks
to be released on the ground that there was a denial or infringement of his constitutional rights
such that the judgment was void or voidable. State v. Crawford, 291 Neb. 362, 865 N.W,2d 360
(2015). Thus, in a motion for postconviction relief, the defendant must allege facts which, if
proved, constitute a denial or violation of his or her rights under the U.S. or Nebraska
Constitution, causing the judgment against the defendant to be void or voidable. Id If a
postconviction motion alleges only conclusions of fact or law, or if the records and flies in the
case affirmatively show that the defendant is entitled to no relief, the court is not required to
grant an evidentiary hearing. Id.
ANALYSIS
Defendant’s amended postconviction consists of three sections, which will be addressed
in the order they appear in the motion:

m

Page 60 of 68

T

8:19-cv-00296-RGK-PRSE Doc #11-15 Filed: 08/23/19 Page 62 of 69 - Page ID # 627

I. Errors by trial court (f 3 a-f; 6)
Defendant’s challenges to errors by the Court, including several of his due process being
violated, do not need to be discussed in great detail, because a “motion for postconviction relief
cannot be used to secure review of issues which were or could have been litigated on direct
appeal, no matter how those issues may be phrased or rephrased.” Slate v, Thorpe, 290 Neb.
149, 858 N.W.2d 880 (2015). Furthermore, a defendant “cannot use a motion for postconviction
relief to collaterally attack issues that were decided against him on direct appeal.” Id. These
claims are procedurally barred, because they could have been brought on direct appeal.. In fact,
most of these were brought and rejected by the Nebraska Court of Appeals, including the denial
of the motion to continue, issues relating to refreshing a the recollection of a witness, and denial
of the motion for mistrial.
II. Ineffective assistance of trial counsel

Defendant bring several claims based on ineffective assistance of trial counsel.
Defendant, however, chose to represent himself at trial and his original court appointed counsel
were relegated to standby counsel. (BOE 70:16-18). The record reflects Defendant represented
himself during the entirety of the trial. Because Defendant represented himself, he can only raise
a claim of ineffective assistance of counsel based on tire standby counsel appointed to assist him
during the trial. The Nebraska Supreme Court, however, has held there is no federal Sixth
Amendment right to effective assistance of standby counsel:
Relief afforded under the Nebraska Postconviction Act, §§ 29-3001
through 29-3004, is limited to the denial or violation of constitutional rights.
Although we have not previously analyzed it, the issue of whether standby
counsel's performance is subject to the constitutional right to effective assistance
of counsel has been considered by other courts. In this regard, we note that
various federal courts have reasoned that a defendant cannot assert a federal
constitutional violation based on ineffective assistance of standby counsel. E.g.,
Simpson v. Battaglia, 458 F.3d 585, 597 (7tb Cir,2006) (“inadequacy of standby

2

Page 61 of 68

:

8:19-cv-00296-RGK-PRSE Doc # 11-15 Filed: 08/23/19 Page 63 of 69 - Page ID # 628

counsel's performance, without the defendant's relinquishment of his [right to selfrepresentation], cannot give rise to an ineffective assistance of counsel claim
under the Sixth Amendment”); U.S. v. Schmidt, 105 F.3d 82, 90 (2d Cir.1997)
(“fajbsent a constitutional right to standby counsel, a defendant generally cannot
prove standby counsel was ineffective”); Johnson v. Quarterman, 595 F.Supp.2d
735, 750 (S.D.Tex.2009) (“[although the court may appoint, standby counsel to
assist a pro sc defendant, there is no constitutional right to the effective assistance
of such counsel”). We agree with the reasoning of the foregoing federal
authorities and numerous similar cases not cited here which conclude that there is
no federal Sixth Amendment constitutional right to effective assistance of standby
counsel. We adopt such reasoning and, by extension, now hold that there is no
right to effective assistance of standby counsel under Neb. Const, art. I, § 11.
♦I**

Because Gunther elected to represent himself and waived his
constitutional right to counsel, Gunther’s allegations of ineffective assistance of
counsel serving only as standby counsel would not constitute an infringement of
his constitutional rights to effective assistance of counsel under the U.S. or
Nebraska Constitution. Under the Nebraska Postconviction Act, §§ 29-3001
through 29-3004, an evidentiary hearing on a motion for postconviction relief
must be granted when the motion contains factual allegations which, if proved,
constitute an infringement of the movant's rights under the U.S. or Nebraska
Constitution. State v. Jim, 275 Neb. 481, 747 N.W.2d 410 (2008). However, if the
motion alleges only conclusions of fact or law, or the records and files in the case
affirmatively show that the movant is entitled to no relief, no evidentiary hearing
is required. Id. Gunther alleges only conclusions that standby counsel, who is not
alleged to have in fact served as trial counsel, provided ineffective assistance of
standby counsel. Such allegations, if proved, would not entitle Gunther to
postconviction relief, and the district court did not err in rejecting such claims
without an evidentiary hearing.
Stale v. Gunther, 768 N.W.2d 453, 457-58, 278 Neb. 173, 178-79 (2009). Similarly here,
because Defendant chose to represent himself, he waived bis constitutional right to counsel.
Therefore, all of bis ineffective assistance of claims are denied without an evidentiary hearing.1

1 Even if these claims were not barred under Guruher, this Court finds the record refutes Defendant suffered any
prejudice based on the overwhelming evidence offered at trial. See e.g. Strickland v. Washington, 466 U.S. 668
(1984) (“Moreover, a verdict or conclusion only weakly supported by tits record is more likely to have been
affected by errors than one with overwhelming record support.’’).

3

Page 62 of 68

Xj

8:19-cv-00296-RGK-PRSE Doc # 11-15 Filed: 08/23/19 Page 64 of 69 - Page ID # 629

III. Ineffective assistance of appellate counsel
Defendant had separate appointed counsel, not the standby counsel, for his direct appeal.
Defendant makes several allegations of ineffective assistance of appellate counsel.

When

analyzing a claim of ineffective assistance of appellate counsel, die Court must determine
whether appellate counsel failed to bring a claim on appeal that actually prejudiced the
defendant, State v. Timmerts, 282 Neb. 787, 805 N.W.2d 704 (2011). In doing so, the court
begins by assessing the strength of the claim appellate counsel purportedly failed to raise. State
v. Jim, 278 Neb. 238, 245, 786 N.W.2d 464 (2009). Counsel’s failure to raise an issue on appeal
could be ineffective assistance only if there is a reasonable probability that inclusion of the issue
would have changed the result of the appeal. M; see also State v, Golka, 281 Neb. 360, 378, 796
N.W.2d 198 (2011); State v. McLeod, 274 Neb. 566, 741 N.W.2d 664 (2007). The Nebraska
Supreme Court has further explained that a reasonable probability “is a probability sufficient to
undermine confidence in the outcome.’’ State v, Poe, 284 Neb. 750, 822 N.W.2d 831 (2012).
The majority of Defendant’s ineffective assistance of appellate counsel claims arc based
on failing to set forth arguments relating to ineffective assistance of trial counsel, however as
noted above, those arguments would be unsuccessful based on Gunther. Appellate counsel was
also not ineffective for failing to allege Defendant did not voluntarily waive his right to counsel,
as the record supports Defendant waived this right knowing the consequences of the decision.
(POE 70:16-18). Any remaining claims relating to ineffective assistance of appellate counsel are
denied without an evidentiary hearing, because Defendant’s motion fails to articulate any issues
that would have “changed the result of the appeal.”

4

Page 63 of 68

1

-i

8:19-cv-00296-RGK-PRSE Doc #11-15 Filed: 08/23/19 Page 65 of 69 - Page ID # 630

CONCLUSION
Each argument in Defendant’s motion for postconviction relief is denied without an
evidentiary hearing, because his arguments for relief are either not pled with specific facts, the
record affirmatively establishes hfs claims are without merit, or they arc procedurally barred.

IT IS THEREFORE ORDERED, ADJUDGED AND DECREED that Defendant’s motion
for postconviction relief is denied without an evidentiary hearing.

DATED this (X day of April, 2018.

BY THE COURT:

■Sfeefiy Stratman l)
District Court Judge

5

J

Page 64 of 68

s.

49

November 4,. 2015, Hearing

or

D U
1

I'm sure I would have a legal assistant,

2

someone on the side.

3

it,

4

with them and return it back to the police

5

department.

6

and I could see it,

THE COURT:

and they can take it back

Well,

we'll address that as we

kind of go through some of these other motions,

8

that's the Motion to Produce for Examination.

10

or

I know they could bring

7

9
’

I mean,

counsel,

So

The Motion to Compel has been withdrawn.
So then we have the Motion to Dismiss

11

Current Counsel and Appoint New Counsel.

12

you still want to go forward on your Motion to

13

Dismiss Current Counsel?

14

MR. WEATHERS:

15

THE COURT:

Okay.

Do

Yes.

One .of the things you need to

16

understand, Mr. Weathers,

is that you have.a public

17

defender appointed to you.

18

forward at this point

19

can hire your own attorney, which I'm assuming you'

20

don't have the funds to do so.

So your options going

there's three of them.

21

MR. WEATHERS:

22

THE COURT:

You

No, ma'am.

Okay.

Then you.get a public
and you don't get

23

defender appointed, which you have,

24

to choose which public defender you have.

25

forward with Mr. Marcuzzo;

or,

three,

So you go

you represent

Page 34 of 68
&

\l

•p"-

50

November 4,. 2015, Hearing

l^o ^O'y^oiO')

or \Jo~X iJL,

which on charges like this,

I think it's a

1

yourself,

2

really bad idea, but those are your options.
So your options are to hire your own

3
4

attorney, which you've indicated you don't have the

5

funds to do so; you have a public defender that s

6

already appointed for you, which he'll remain your

7

attorney;

8

want to proceed?

I

THE COURT:

10
Mr .

That's a really bad idea,

Weathers, because
Mr. Marcuzzo is not trying to

MR. WEATHERS:

12
13

How do you

I'll represent myself.

MR. WEATHERS:

9

11

or' you can represent yourself.

help me,

ma'am.
THE COURT:

14

Well,

15

you right now is that,

16

yours e1f,

17

as your legal advisor.

18

MR. WEATHERS:

19

THE COURT:

what I am going to tell

even if you want to represent

Mr. Marcuzzo is still going to be appointed

That's fine.

But I think that you need to

20

take the opportunity to speak with Mr.

21

this,

because it's -MR. WEATHERS:

22

Marcuzzo about

I've lost my six-month speedy

because I've told Mr. Marcuzzo repeatedly of

23

trial,

24

things that need to be done,

25

done absolutely nothing.

what we needed,

and he's

He, doesn't even know of any

t
<£2.

Page 35 of 68

V

Novemb'er 4,. 2015, Hearing

51

CPT \jo~\ iJL. uS)o-Si V-ejT'

f\3o
1

witnesses that I have after 11 months.

2

know any of them.
THE COURT:

3

He doesn't

There's an attorney/client

4

privilege as far as what you and Mr. Marcuzzo have

5

dis cussed.

6

MR.

WEATHERS:

7

THE COURT:

I understand.

What I can tell you is he's an

8

excellent attorney who has been practicing law here

9

for a long time.

If he makes decisions based on what

10

he feels should or shouldn't be addressed,

11

between you and him and your discussions,

12

not something that

13

are a lot of things encompassed in the

14

attorney/client privilege,

15

sitting here right now you truly appreciate what that

16

is .

:

that's
and that's

I want to tell you that there

ll

I\
\
\

you and Mr. Marcuzzo have had with respect to how
you're approaching your defense in this case,

20
21

f

l

So I don't want to get into discussions that

17
18

and I don't know that

but

what I'm telling you is that you need to proceed with
- attorney

MR. WEATHERS:

22
23

Mr. Marcuzzo.

24

all this is is a story.

25

exact

I'm not going with

I will represent myself.
And like I said,

This is
then,

the

the relationship was inappropriate, but the

¥

Page 36 of 68

l
I

November 4,. 2015, Hearing

52

\f

tOo ~JLn qoinj

idL,

v'ev'"
i

1

entire

2

THE COURT:

I'm going to stop you right

3

there,

Mr. Weathers.

4

record that are not in your best interest,

5

on that and based on

You're making statements on the

6

MR. WEATHERS:

7

THE COURT:

8

MR. WEATHERS:

9

and based

I'm not taking --

I'm going to deny your -No.

I'm not taking -- I'm

not going to talk to him if he comes to see me.

I 'm

not saying anything to him.

10
11

THE COURT:

12

MR. WEATHERS:

13

He is your
I won't say anything else,

but I'm not --

14

THE COURT:

Mr.

15

interrupting me,

16

So you need to stop --

Weathers,

you're

and I don't appreciate that,

17

MR.

WEATHERS:

18

THE COURT:

talking right now.

19

MR. WEATHERS:

Okay.

20

THE COURT:

sir.

I apologize.

These charges are very serious,

21

and if you are convicted, you stand to potentially

22

serve a lengthy amount of time,

23

■

stake here,

So there is a lot at

and there's so much at stake here that

24

you should not proceed without Mr. Marcuzzo as your

25

attorney.

Page 37 of 68 ,

i

November 4,. 2015, Hearing

1
2

MR. WEATHERS:
attorney.

“

lOcu

v/-e^

I don't want him as my

I don't even know
THE COURT:

3

X

v/<0 iJL

O <"

'|\)D

53

The other thing you need to

4

understand, Mr. Weathers,

5

rules of evidence and procedural rules that

6

absolutely must be followed.

is that there are certain

7

MR. WEATHERS:

8

THE COURT:

. 9

represent yourself,

10

can't give you a break that I wouldn't give an

11

attorney.

Okay.

And because you choose to
I can't let go of those rules.

12

MR. WEATHERS:

13

THE COURT:

I understand.

And I just want you to

14

understand that -- we just had a gentleman in here

15

last month on very serious charges that carried a

16

whole lot of time, and he chose to represent himself

17

in front of a jury.

18

go well for him.

• 19

do so,

I

And I'm telling you,

it did not

So it is not a good idea for you to

and I think you need to keep Mr. Marcuzzo on

i

i

20

a s your attorney and allow him to help you.

21'
22

MR. WEATHERS:
myself,

Your Honor.

23

THE COURT:

24

MR. MARCUZZO:

25

I'm going to represent

guess at this point,

All right.
Judge,

then,

I suppose,

then

I

I would make a formal

Page 38 of 68

V
November 4„ 2015, Hearing

54

cr*" V/^JicdL U_W< \I-e^T'

l\)o 3Hfr\ci
1

Motion to Withdraw as his attorney; although,

2

Court desires me to remain his

3

an advisory position, certainly our office would be

4

happy to do so.

5

THE COURT:

not counsel,

but in

And that's what I would do.

6

I'll note'that Mr. Weathers wants to proceed

7

self-represented,

8

Mr. Marcuzzo,

9

if the

but I am going to keep you on,

as his legal advisor.

MR. MARCUZZO:

And,

I guess,

Judge,

for the

10

record,

11

our office to be able to aid him,

12

to communicate with either myself and/or Ms. Andrews,

13

if he wishes us to assist him in this trial or the

14

lead-up to the trial.

Mr.

15

i

Weathers needs to understand if

THE COURT:

Right.

for

he is going to have

And for the record to be

16

clear,

17

Ms. Andrews as Mr. Weathers'

18

direct you, Mr. Weathers, that you need to

19

communicate with Mr.

20

order to prepare for trial.

I will appoint both Mr. Marcuzzo and
1

legal advisors and

Marcuzzo and Ms. Andrews in

21

MR. WEATHERS:

22

THE COURT:

Yes, ma'am.

All right.

The Motion to

23

Continue.

24

Motion to Continue is because all text message

25

evidence has not been turned over completely.

At this point you're indicating your

Well,

I

Page 39 of 68.

;

j

2 ;

INDEX

1

Pages

2014, Bond Review

12-15

2

December 22,

3

June 18,

4

November 4,

5

November,

6

November 13,

7

December 3,

2015,

Hearing Subpoenas

Pages 77-105

8

December 7,

2015,

Trial

Pages 106-319

9

December 8,

2015,

Trial

Pages 320-577

10

December 9,

2015,

Trial

Pages 578-815

11

December 10,

2015, Trial

Pages 816-1022

12

December 11,

2015, Trial

Pages 1023-1025

13

February 17,

2016,

Pages 1026-1051

14

WITNESSES

15

Motion to Suppress 6/18/2015

16

Christy Jaworski

17

Trial, 12/8/15

18

Tammy Quick

399

19

Laquela Weathers

411

461

20

Honesty Ali

470

569

21

Trial, 12/9/15

22

Honesty Ali

23

Anne Boatright

655

24

Helena Clay-Veitch

25

Callie Getzschman

2015, Motion to Suppress
2015, Various Motions

10,

Pages 40-62
No Record

2015
2015,

Pages 16-39

State's Motion

Sentencing
Dir.

20

Pages

Cross

Redir.

32

587

638

665

684

687

688

716

70

Proceedings - November 13, 2015

MR. WEATHERS:

1

3

THE COURT:

4

MR. WEATHERS:
Rhone,

-P

Go ahead.
I just want to say with this

once they go into it with the passcode, there is

no trick wires or anything that will make this phone
self-delete once it's entered.

§
&

8

0I5

9

'

too, Your

Honor ?

2

>+

May I add something,

that clear.
THE COURT:

I'm not sure what you're saying.

You're saying that it's not going to --

10

MR. WEATHERS:

11

Just wipe itself automatically

*

hrH-

!2/

-tr

13

1 Ti

I just want to make

if somebody does something wrong to it.
THE COURT:

Okay.

Which I would hope because

14

if there is information there that you think is

15

helpful,

C o

^3
> ^

. 2*cO

it

Mr. Weathers,

are

are you still wanting to proceed self-represented?

18

MR. WEATHERS:

19

THE COURT:

Yes.

Okay.

Now, with respect to

20

you're indicating that you -- last time we were here we

X)

21

talked about the police reports and that there were

22

quite a few reports that there needed to be some things

23

redacted.

^

34,
o
<r

(

17

Now,

All right.

3

I

1

Okay.

16
V

you want to make sure that's preserved.

MS. BEADLE:

24
25

Where are we at on that?
Your Honor,

Public Defender's Office,

I have spoken to the

and Rob Marcuzzo has

C
./~\ A

¥ jr\ on ">

'ih.M

and

